   PROCESSING OF INSURANCE
RECOVERY CHECKS AT THE DISASTER
    LOAN SERVICING CENTERS

            Report Number: 11-07 

        Date Issued: February 10, 2011 





               Prepared by the
         Office of Inspector General
     U.S. Small Business Administration
              u.s. Small Business Administration
              Office Inspector General                        Memorandum
To: 	        John A. Miller                                       Date:   February 10, 2011
             Director, Office of Financial Program Operations
             /s/ Original Signed
From:        Peter L. McClintock
             Deputy Inspector General

Subject: 	   Report on the Processing of Insurance Recovery Checks at the
             Disaster Loan Servicing Centers, Report No. 11-07


             This report summarizes our audit of the Small Business Administration's (SBA)
             processing of insurance recovery checks at the Disaster Loan Servicing Centers.
             The audit objective was to determine whether the servicing centers have adequate
             and effective systems for processing insurance checks and recovering duplicate
             benefits.

             The servicing centers receive and process a variety of checks including loan
             payoff checks, borrower monthly payments, and insurance checks. To evaluate
             the insurance recovery check processing systems, we obtained a universe of
             21,568 	c hecks processed by the Birmingham servicing center and 9,990
             checks processed by the EI Paso servicing center for FY 2008 and FY 2009.
             Because the universe of checks did not identify which were for insurance
             recovery, we extracted a sample of 1,500 checks from the Birmingham
             universe and 800 checks from the EI Paso universe to identify those checks
             that were for insurance. From these samples, we identified 133 insurance checks
             processed by the Birmingham servicing center and 211 checks processed by the El
             Paso servicing center that were specifically for insurance. We determined that 77
             of the 133 insurance checks received by the Birmingham servicing center and 97
             of the 211 insurance checks received by the El Paso servicing center were for the
             same disaster as the SBA loan and, therefore, should have been evaluated for
             potential duplication of benefits.

             We interviewed the staff at the Birmingham and El Paso servicing centers
             responsible for performing duplication of benefits analysis and observed staff as
             they analyzed sample insurance checks for potential duplication of benefits
             (DOBs). To test whether the servicing centers accurately identified DOBs, we
                                                                                               2

reviewed Disaster Credit Management System (DCMS), Centralized Loan
Chronology System (CLCS), and Field Cashiering System (FCS) entries related to
the loan for each check in our sample. We also contacted the insurance companies
to obtain a complete, up-to-date record of all insurance claim payments for each
sample item. Our audit scope and methodology is further detailed in Appendix I,
and our sampling methodology is provided in Appendix II.

We conducted the audit between March 2010 and October 2010 in accordance
with Government Auditing Standards prescribed by the Comptroller General of the
United States.

RESULTS IN BRIEF

The servicing centers did not have adequate, effective procedures and systems for
processing insurance recovery checks. As a result, significant errors in the DOB
determination were made by each of the servicing centers. Approximately 47
percent of the DOB determinations made by the Birmingham servicing center and
23 percent of the DOB determinations made by the El Paso servicing center were
inaccurate. Consequently, $625,884 was improperly returned to borrowers and
another $123,992 was improperly applied to outstanding loan balances. Also, for
one of the loans in our sample, we identified an additional $529,444 1 in duplicate
benefits that was undetected by the servicing center.

Projecting our sample results to the universe of2l,568 checks processed by the
Birmingham servicing center during FY 2008 and FY 2009, we estimate that at
least 340 checks totaling nearly $3.5 million in duplicate benefits were returned to
borrowers in error. Likewise, based upon the universe of9,990 checks processed
by the El Paso servicing center, we estimate that at least 159 insurance checks
processed during the same period resulted in $667,362 in duplicate benefits being
returned erroneously.

These errors occurred because: (1) SBA did not have adequate procedures to
evaluate insurance checks for duplicate benefits; (2) some employees lacked the
expertise and tools to calculate remaining loan eligibility needed for duplicate
benefit determination; and (3) the centers did not adequately document
information to support the DOB determination so that it would be available if a
check for the same borrower was subsequently received.

We recommend that the Office of Financial Program Operations improve the
system for processing insurance recovery checks by revising SOP 50 50 and 5052
to incorporate detailed instructions for processing insurance recovery checks,

1   This amount was not projected to the universe because it was not included in our sample.
                                                                                      3

which include effective practices that will correct the deficiencies identified in this
report. We further recommend that the servicing centers assign the insurance
recovery check processing to selected individuals and fully document the
justification for the decision to return or retain each check. We also recommend
that the Agency recover duplicate benefits identified in this audit. In response to
the draft report, Agency management generally concurred with our
recommendations. (See Appendix V).


BACKGROUND
The SBA provides direct disaster loans to homeowners, renters, businesses and
nonprofit organizations to help them return to pre-disaster condition. Section 312
of the Robert T. Stafford Disaster Relief and Emergency Assistance Act (42
U.S.C. 5155), amended in June 2007, requires the Federal Government to ensure
that no person or entity be provided disaster assistance if he or she has received
financial assistance under any other program or from insurance or any other
source. The Act further provides that Federal agencies may provide disaster
assistance to a person who is or may be entitled to receive benefits for the same
purpose from another source if the person has not received these benefits by the
time of application for Federal assistance and if the recipient agrees to repay all
duplicative assistance to the agency providing the Federal assistance. Finally, the
Act specifies that persons who receive Federal assistance for a major disaster or
emergency shall be liable to the United States to the extent that the assistance
duplicates benefits awarded to the person for the same purpose. According to 44
CFR 206.9l9(b)(1), Federal agencies shall establish appropriate agency policies
and procedures to prevent duplication of benefits.

To comply with the Act, Standard Operating Procedure (SOP) 50 30 requires
ODA to determine the borrower's uncompensated loss, which is the difference
between the total loss determined by SBA and any deductions (insurance or other
recoveries) for duplication of benefits. All insurance payments for the same
purpose as the disaster loan are considered a duplicate benefit.

An Assignment of Insurance Proceeds (AlP), executed by the borrower prior to
final loan disbursement, instructs the insurance company to send applicable
insurance proceeds to SBA. The servicing centers routinely receive all assigned
insurance checks and are responsible for evaluating whether the checks might be a
duplication of benefits.

The Disaster Loan Servicing SOP 50 52 provides basic criteria for when it is
permissible to release insurance proceeds to borrowers that have disaster home
loans. The SOP specifies that an insurance check may be endorsed and released to
                                                                                  4

the borrower if the loan is current and the check is not a duplication of benefits.
However, the SOP is silent regarding how to identify duplication of benefits when
an insurance check is received, what to do once a duplication has been identified,
what information should be retained to support the accuracy of the determination,
and what action should be taken to ensure that DOBs identified are successfully
collected. Additionally, SOP 50 50, which provides criteria for servicing business
loans, does not provide any guidance for processing insurance checks for potential
duplication of benefits.

The first step necessary to evaluate an insurance check for potential DOBs is to
compute remaining borrower eligibility; however, SOP 50 52 does not specify
how to perform the computation. There are a number of components to the
eligibility computation, including verified loss, total project cost, FEMA grant
awards, initial insurance recoveries, and other grant awards. Additionally,OMB
Circular A-123, Management Accountability and Control, requires that agencies'
management have well-defined documentation processes for internal controls that
contain an audit trail, verifiable results, and specify document retention periods.


RESULTS

Disaster Loan Servicing Centers Did Not Accurately Process Insurance
Recovery Checks

The Disaster Loan Servicing Centers made inaccurate DOB determinations and
inappropriately returned or retained some insurance checks. Specifically, 36 of
77, or 47 percent, of the checks from our sample that were processed by the
Birmingham servicing center had an inaccurate DOB determination. Of the 36
inaccurate determinations made by the Birmingham servicing center, 32 checks
totaling $477,102 were returned to borrowers in error, and 4 checks totaling
$108,956 were erroneously applied to outstanding loan balances. Additionally, 22
of 97, or 23 percent, of the checks from our sample that were processed by the El
Paso servicing center also had an inaccurate DOB determination. The El Paso
servicing center improperly returned 19 checks totaling $148,778 and improperly
applied 3 checks totaling $15,036. Projecting these sample results to the universe
of2l,568 checks processed by Birmingham servicing center during FY 2008 and
FY 2009, at least $3,498,799 in duplicate benefits were returned to borrowers in
error. Similarly, we projected that at least $667,362 in duplicate benefits was
returned in error by the El Paso servicing center from a universe of 9,990 checks.
We also identified an additional $529,444 in insurance checks that resulted in
duplicate benefits that were undetected by the Birmingham servicing center, which
were outside of the sampled universe.
                                                                                     5

The incorrect DOB determinations and disposition of insurance recovery checks
occurred because: (1) SBA did not have adequate procedures to evaluate
insurance checks for duplicate benefits, (2) some employees lacked the expertise
and tools to calculate remaining loan eligibility needed for the duplicate benefit
determination; and (3) the centers did not adequately document information to
support the DOB determination so that it would be available if a check for the
same borrower was subsequently received.

Inadequate Procedures Contributed to Processing Deficiencies
Practices at both servicing centers led to inaccurate DOB determinations. For
example, when an insurance check was received, the servicing centers did not
routinely contact the insurance company that issued the check to obtain a list of all
payments previously made to the borrower. All previous insurance payments must
be included in order to accurately determine whether a duplication of benefits has
occurred. Unless the servicing center has a record of all insurance payments, the
DOB evaluation cannot be performed accurately. In one case, the El Paso
servicing center was unaware of $52,061 in prior insurance payments and as a
result, returned a $50,000 check to the borrower that should have been applied to
the loan balance. Had it contacted the insurance company, the $50,000 DOB
would have been identified.

Additionally, the Birmingham servicing center did not evaluate insurance checks
listing a senior lien holder as a co-payee for potential DOB. SBA is often not the
primary lien holder of the damaged property; therefore, many insurance checks it
receives are also co-payable to the first, or senior, lien holder. The servicing
center generally assumed that senior-lien-holders would always exercise the right
to keep the insurance funds, without verifying that the senior lien-holder required
the funds. As a result of not evaluating checks with a senior lien holder listed as a
co-payee, the Birmingham servicing center did not identify or collect $59,423
dollars in duplicate benefits arising from 10 checks.

The Birmingham servicing center also returned insurance checks resulting from
re-evaluation settlements to borrowers without analyzing them for duplication of
benefits. Re-evaluation settlement checks are insurance payments resulting from
borrowers appealing the initial insurance settlement amount received for their
damaged property. The servicing center personnel mistakenly believed that all
such checks were for debris removal and other property clean up. We determined
that this assumption was erroneous, and had they contacted the insurance
company, the servicing center personnel would have identified the purpose of the
re-evaluation settlement check. Since the settlement checks in question were for
real estate and personal property, not debris removal, the checks should have been
evaluated for potential DOBs and applied to the loan balance. A total of $44,292
in insurance recoveries that created duplicate benefits were returned to borrowers
                                                                                     6

as a result of the faulty assumption that the eight checks were for debris removal
and property clean up.

Also, a practice at both servicing centers was to return insurance checks, issued for
increased cost of compliance (ICC), to borrowers without evaluating the checks
for duplication of benefits. ICC checks are generally for hazard mitigation or
increasing property elevation to bring the property into compliance with local
codes. The servicing centers presumed that the disaster loans did not include
funds for mitigation or elevation, and thus the checks could not be a duplication of
benefits. However, mitigation and elevation are an allowable use of proceeds for
disaster loans. Although we did not identify any insurance checks for ICC that
created duplicate benefits, there is a risk that this could occur.

The purpose of an SBA disaster loans is to repair or replace a disaster victim's real
property, or his or her personal property, which was damaged or destroyed a result
of a natural disaster. Another deficient practice of the servicing centers was to
only evaluate, for potential DOBs, checks with the same purpose as the loan. For
example, one check for $16,342 was for personal property, whereas the SBA loan
was for real estate only. The servicing center did not evaluate the loan for
potential DOBs and returned the check to the borrower. However, there was an
existing unidentified duplicate benefit for real estate due to a previous failure of
internal controls. Therefore, the entire $16,342 should have been applied to the
loan balance since SBA had previously duplicated benefits the borrower had
received from insurance and, therefore, had loaned the borrower more than he was
eligible to receive. When SBA inadvertently loans a borrower an amount
exceeding loan eligibility, the loan balance is referred to as "over-disbursed." We
found eight instances in which the loans were already over-disbursed when the
insurance checks were received by the servicing centers, but the checks were
returned to the borrowers without a DOB evaluation.
One of the reasons the deficiencies in the process for evaluating insurance
recovery checks occurred is because the Agency did not have adequate, effective
written policies and procedures for the servicing centers to address duplicate
benefits from insurance checks. Although SOP 50 52 states that an insurance
recovery check must not be returned to the borrower if it is a duplication of
benefits, the SOP does not explain: (1) which checks to evaluate; (2) how to
evaluate an insurance recovery check for potential DOB; (3) what information to
use in performing the loan eligibility computation; and (4) where to find the
information needed to perform the calculation. This lack of adequate written
guidance contributed to the inaccurate DOB evaluations and inconsistencies in the
DOB evaluation practices at the servicing centers.
                                                                                      7

To effectively resolve these deficiencies, SBA should revise SOP 50 50 and SOP
50 52 to establish policies and procedures that address deficiencies identified in
this audit.

Some Employees Lacked Expertise and the Tools Necessary to Calculate
Remaining Loan Eligibility

A disaster victim does not always borrow the total amount which he or she is
eligible to borrow from SBA. When a disaster victim accepts a loan for less than
he or she is eligible to receive from SBA, that borrower will have remaining loan
eligibility. The remaining borrower eligibility, not the amount borrowed, dictates
whether or not an insurance check creates a duplicate benefit. Provided that a
borrower has remaining SBA loan eligibility, an insurance check will not create a
duplication of benefits.
When a loan is transferred to servicing, there is no data element in DCMS of the
borrower's remaining eligibility, or audit trail for easily identifying which figures
the Processing and Disbursement Center (PDC) used to compute eligibility. The
servicing centers rely upon eligibility information generated by the PDC during
loan origination; therefore, the PDC shares the responsibility for accurate
insurance check processing. DCMS stores the components of eligibility in various
places, but the information is not consolidated and doesn't identify which figures
were used to determine eligibility. Lacking this information, the servicing centers
must re-compute borrower eligibility from the point the loan was originated to
evaluate each check for DOBs. Given the complexity of the calculation, there is a
risk that the resulting computation could be inaccurate. Also, the practice of
computing borrower eligibility each time an insurance check is received is
inefficient.
OFA will need to coordinate with ODA to develop a process for conveying
remaining borrower eligibility when the loan is transferred to servicing.
Additionally, to compute eligibility when a loan involves relocation, verified loss
information in the Home Financial Analysis Tool (HFAT), a component of
DCMS, must be used to obtain the correct loss amount. The servicing centers
were not aware of this fact and also lacked access to HF AT; therefore, they were
not always able to make the correct DOB determination. For example, one check
in the amount of $89,930 involving borrower relocation was returned in error,
because the servicing center used the verified loss from the DCMS property
screen, instead of the correct verified loss amount found in HF AT.
The servicing center personnel are not proficient in locating the components of
eligibility and performing the calculations. The EI Paso servicing center made 13
inaccurate determinations, totaling $59,609 to retain or return insurance checks
because they were unable to correctly calculate borrower eligibility. The servicing
                                                                                    8

center did not have sufficient expertise to consistently locate all of the components
of eligibility in DCMS and perform the eligibility calculation correctly, as
evidenced by the 13 inaccurate determinations, including 11 checks that were
returned to borrowers in error, and two checks that were retained in error due to
mistakes made in the eligibility calculation. We were unable to evaluate the
accuracy of the eligibility determinations made by the Birmingham servicing
center because there was no evidence that calculations were performed.

In order to correctly evaluate insurance checks for DOBs, the servicing centers
should establish and train a dedicated team of employees to specialize in
processing insurance checks for DOBs. In our discussions with the agency, they
agreed with this recommendation and have taken steps to implement it.

All In/ormation Supporting the DOB Determination/or Each Check Was Not
Recorded
The two servicing centers did not routinely retain information needed to evaluate
an insurance check for DOBs, such as: (1) the amount of the check; (2) the date of
loss associated with the check; (3) whether the check was compensation for real
estate or personal property; (4) the computation used to determine whether the
check was a duplication of benefits; and (5) the remaining borrower eligibility.
Lacking this information, when the servicing centers received a subsequent
insurance check, they had to extract all of the components of eligibility from
DCMS and perform the computation again. This occurred because the servicing
centers did not have a centralized location for recording and storing information
specific to each loan. Since the servicing centers did not retain pertinent details
about prior insurance checks, there is a high risk that an error could occur in the
calculation.

To prevent errors in the DOB determination, the servicing centers should
document all of the information related to the check disposition decision.

RECOMMENDATIONS

We recommend that the Director of the Office of Financial Program Operations:

   1. 	 Recover $625,880 ofDOBs identified in this audit that were improperly
        returned to borrowers and $529,444 ofDOBs identified in this audit that
        were outside of the scope of the sample.

   2. 	 Identify and recover other DOBs improperly returned during FY 2008, FY
        2009, and FY 2010.
                                                                                       9


   3. 	 Revise SOP 50 50 and SOP 50 52 to incorporate detailed instructions for
        processing insurance recovery checks that explain which checks to evaluate
        for DOB, how to evaluate them, what information to use in performing the
        loan eligibility computation, and where to find the information needed to
        perform the computation.

   4. 	 Assign the processing of insurance recovery checks to selected
        individual(s) at each center and provide them training to allow them to
        become proficient in calculating duplication of benefits.

   5. 	 Ensure the servicing centers document all of the information related to the
        decision to return or retain each check for future reference.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 23,2010, we provided the Office of Financial Program Operations
(OFPO) with the draft report for comment. On January 31,2011, OFPO submitted
its formal response which is contained in Appendix V. Management agreed with
our findings and concurred with our recommendations. Management has already
initiated action to address Recommendations 4 and 5. A summary of
management's comments and our response is as follows.

Recommendation 1

Management Comments

OFPO concurs with this recommendation. However, OFPO believes it is highly
unlikely that the funds identified by the OIG will be returned. In all likelihood,
OFPO will have to refuse further discretionary loan servicing assistance until the
borrowers repay the improperly returned funds in a lump sum or through agreed
upon monthly installments. OFPO and the Disaster Centers will make every effort
to recover as much of the improperly returned DOBs by 12-31-2011 as follows:

   • 	 OFPO will review the loans identified in the audit to re-verify OIGs
       findings. If there is a discrepancy, OFPO will discuss the issue with the
       OIG prior to taking any action to collect.
   • 	 OFPO will develop a standardized dunning letter and workflow document
       to guide the loan specialists in retrieving duplication of benefits that were
       improperly returned.
   • 	 The letters will be mailed to all borrowers no later than April 30, 2011.
       The letter will include a statement that if the money is not returned to the
                                                                               10

       SBA, future discretionary SBA loan servicing assistance will not be granted
       as stated above.
Additionally, OFPO will gather monthly data from both centers of the contacted
borrowers, including responses from the borrower and the total amount recovered
beginning May 1,2011.

DIG Response

Management's comments are responsive to the recommendation.

Recommendation 2

Management Comments

OFPO concurs with this recommendation. Due to the volume of work this project
would entail, it would be most beneficial to do a cost benefit analysis in July,
2011, determined by the results of trying to collect the funds as noted above in
recommendation 1. If it is determined that the borrowers did not respond to the
attempt to collect the DOB under Recommendation 1, OFPO reserves the
opportunity to review this recommendation with the OIG. It is important to note
that there is no loss to the SBA if the borrower continues to make payments until
the loan is paid in full.

DIG Response

Management's comments are responsive to the recommendation.

Recommendation 3

Management Comments

OFPO concurs with this recommendation as indicated in the opening narrative.
OFPO expects to place edits of the SOP 50 52 into clearance by July 2011 and will
develop language to be included in the next revision of SOP 50 50 (during its
annual update which is issued each September).

DIG Response

Management's comments are responsive to the recommendation. OIG requests an
opportunity to review the anticipated edits to the SOPs in July 2011 and comment
upon their effectiveness in addressing the concerns noted in this report.
                                                                                       11




Recommendation 4

Management Comments

OFPO concurs with this recommendation and has addressed and or plans to
address these concerns as reflected in the opening narrative.

DIG Response

Management's comments are responsive to the recommendation.

Recommendation 5

Management Comments

OFPO concurs with this recommendation and has already taken action to capture
determinations as evidenced in the opening narrative. Additionally, OFPO will
work with the Denver Finance Center (DFC) to improve the process for
identifying insurance checks in the field cashiering system. OFPO will
recommend changes to the field cashiering system which would identify insurance
checks that are received by the disaster loan servicing centers and reflect the
disposition of check (i.e. returned to borrower/senior lender for endorsement,
applied against loan, not related to the disaster etc.). These discussions will start
no later than April 15,2011.

DIG Response

Management's comments are responsive to the recommendation.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken
or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Office of Disaster Assistance
during the audit. If you have any questions regarding this report, please contact
me at (202) 205-[ex. 2] or Craig Hickok, Director, Disaster Assistance Group, at
(817) 684-[ex. 2]
APPENDIX I. AUDIT METHODLOGY                                                   12

The audit objective was to determine whether the servicing centers have adequate
and effective systems for processing insurance recovery checks and recovering
duplicate benefits.

To satisfy this objective, we interviewed managers at the EI Paso and Birmingham
servicing centers to obtain an understanding of the procedures that the centers
were following. We provided examples of insurance checks to personnel at each
servicing center and observed as the staff processed these example checks.

We obtained a Field Cashiering Report of all checks received by the Birmingham
and EI Paso servicing centers during FY 2008 and FY 2009 and tested a sample of
those checks to identify whether or not the checks were insurance checks. After
obtaining the universe of checks, we extracted a sample of 1,500 checks from the
Birmingham universe and 800 checks from the EI Paso universe to identify those
checks that were for insurance. Based upon the percentage of checks received by
each servicing center determined to be insurance checks, we obtained a statistical
sample of 147 probable insurance checks from Birmingham and 216 probable
insurance checks from EI Paso servicing center for review. We reviewed the
documentation provided by the Birmingham servicing center for the 147 probable
insurance checks and concluded that 133 of these checks were actually for
insurance and were processed by the Birmingham servicing center. We concluded
that 211 of the 216 EI Paso servicing center probable insurance checks were for
insurance and were processed by the EI Paso servicing center.

We then compared the disaster date associated with each insurance check to the
SBA loan disaster date. Since the servicing centers often did not have
documentation providing the disaster date associated with each check, we
contacted the insurance companies which provided the checks to obtain the date of
loss associated with the check. From the 133 Birmingham servicing center
checks, we identified a statistical sample of 77 insurance checks with the same
disaster date as the SBA loan that were evaluated by the Birmingham servicing
center for potential DOBs. From the 211 EI Paso servicing center checks, we
identified 97 checks evaluated for DOBs during FY 2008 and FY 2009 with the
same disaster date as the SBA loan. We performed an independent DOB
evaluation for each check in the sample and compared our DOB determinations
with those made by the servicing center.

The audit was conducted between March 2010 and October 2010 in accordance
with Government Auditing Standards as prescribed by the Comptroller General of
the United States, and included such tests considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.
    APPENDIX II. SAMPLING METHODLOGY                                                       13

    We obtained a universe of21,568 checks processed by the Birmingham servicing
    center during FY 2008 and FY 2009 and 9,990 checks processed by the EI Paso
    servicing center for the same period. The Birmingham universe included not just
    insurance checks, but all checks received by the Birmingham servicing center
    during FY 2008 and FY 2009. The EI Paso servicing center universe, however,
    was obtained by taking the list of all checks received during the period and
    filtering out those checks processed by the group responsible for insurance checks.
    After obtaining the universe of checks, we extracted a sample of 1,500 checks
    from the Birmingham servicing center and 800 checks from the EI Paso servicing
    center. We reviewed the CLCS comments for each of the 1,500 Birmingham and
    800 EI Paso servicing center samples to identify those checks that were for
    insurance. From these samples, we indentified 133 checks processed by
    Birmingham servicing center and 211 checks processed by EI Paso servicing
    center that were specifically for insurance.

    We calculated the population point estimates and the related lower and upper
    limits for the selected attributes using the Windows RAT-STATS statistical
    software program at a 90-percent confidence level. Projecting our sample results
    to the universe of21,568 checks, we estimate that at least 340 Birmingham
    servicing center processed checks contained duplication of benefits not identified
    or recovered. Projecting our sample results to the universe of 9,990 checks, we
    estimate that at least 159 EI Paso servicing center processed checks also contained
    duplication of benefits not identified or recovered.




r     OIG Estimate of Birmingham DLSC Processed Checks Containing Duplicated
                   Benefits That Were Returned to Borrowers in Error
                                                                                           l
                    Occurrence in
                                 -
                                      Population
                                                         -r
                                                         90 Percent Confidence             I- '
                                                         Limi~
                    Sample of 147        Point                       I
                       Checks          Estimate
                    I                  I            I Lower            Upper Limit

r     Number of
                    I
                    r                  Ii            l r II                                     I
                                                         lJ
                           32                  318               340                610

                                                                           -II
       Checks


-
     outstandin~l
     Dollar Value
                    -
                        $477,102
                                   ]        $6,860,092        $3,498,799         $10,221,386J
    APPENDIX II. SAMPLING METHODLOGY                                                         14

    OIG Estimate of EI Paso DLSC Processed Checks Containing Duplicated                Benefit~1
                        That Were Returned to Borrowers in Error
                                    -                    -r
                                                                                              -~
                                                                90 Percent Confidence
                       Occurrence in        Population                    -
                       Sample of 216          Point       I                    I
                   I
                         Checks
                                        I
                                             Estimate
                                                          I   Lower Limit           Upper Limit

r                II                                  JI                                       ]
                   r             ~r=                                      II
     Number of              19                 184               159                   341
      Checks


-
    outstandin~l
    Dollar Value
                   -
                         $147,370
                                    JI
                                    -
                                                     Jr-
                                            $1,840,289         $667,362
                                                                            ~
                                                                              -II   $3,013,215]
APPENDIX III. BIRMINGHAM DLSC LOANS WITH
CHECK DISPOSITION ERRORS                                                              15


                            Check Amount
                                                                          Check Amount
                Loan       Returned in Error
                                                   Sample     Loan       Retained in Error
               Number       by Birmingham
     Sample                                                  Number       by Birmingham
                                DLSC
                                                                               DLSC
 1    001     8699684010         $55,555.46         021     7921114000          $8,508.72
 2    002     2230346000          16,342.64         046     1661466009          89,930.00
 3    018     3611946001           4,300.00         097     3194886005           3,141.71
 4    020     1235276008          19,966.66         104     9501204006           7,375.59
 5    024     9556474003           4,623.22
 6    028     1306076005           9,527.40
 7    040     1911196004           1,193.69
 8    041     1864486004           1,048.78
 9    042     9338434004           3,087.50
10    049     8699684010          58,296.28
11    052     1211806007           7,500.00
12    065     9257764007           1,357.15
13    066     9338914006          10,000.00
14    067     9887614002           2,334.63
15    068     1913086010           9,700.00
16    072     9558744005          12,986.00
17    074     1239066001          13,098.00
18    077     3363306008          10,200.00
19    092     1918006007             404.11
20    093     4709304008             474.50
21    095     9486584005           9,000.00
22    105     9664564003          89,580.40
23    108     9729094006           2,081.66
24    109     9375224010           5,800.00
25    112     9747774002           2,147.03
26    115     1944466009          40,000.00
27    118     2422036006           1,055.00
28    121     9368864005           9,100.00
29    123     9370994008           8,000.00
30    133     1788166010           2,810.30
31    138     2252236003           3,000.00
32    141     8699684010          62,531.72

               TOTALS           $477,102.13    I                              $108,956.02    I
APPENDIX IV. EL PASO DLSC LOANS WITH CHECK
DISPOSITION ERRORS                                                             16

                              Check                                     Check
                             Amount                                    Amount
                            Returned in        Sample   Loan Number   Retained in
     Sample   Loan Number                                              Error by
                             Error by
                              EIPaso                                   EIPaso
                               DLSC                                     DLSC
 1    026     1245066008         $239.24        093     3148706007      $6,619.82
 2    033     9883414004        2,785.95        131     9879574003       7,583.00
 3    041     9243424009       11,656.84        148     1313686009         833.33
 4    061     3322646009        6,263.09
 5    079     9505154001        5,668.75
6     087     1627826006        1,218.40
 7    089     3611806005       12,820.47
 8    143     1103946006          982.67
 9    144     1574076001        2,500.00
10    153     1546916007        2,383.00
11    162     9331294007       50,000.00
12    168     1023986007        3,338.31
13    183     1159166007        2,000.00
14    187     9565974002        1,500.00
15    194     2215246007         2175.39
16    195     2091346010        3,324.80
17    205     9191734005       20,495.89
18    211     9796324003       13,429.35
19    215     1017556000        6,000.00

                TOTALS      $148,782.15    I                           $15,036.15   I
APPENDIX V. AGENCY RESPONSE                                                            17




                           u.s. SMALL BUSINESS ADMINISTRATION
                                    WASHINGTON, D.C. 20416 


                                   MEMORANDUM
                                   January 31, 2011

To:        Peter L. McClintock
           Deputy Inspector General

From:      John A. Miller
           Director, Office of Financial Program Operations

Subject:   Response to Draft Report on the Processing of Insurance Recovery Checks at
           the Disaster Loan Servicing Centers, Project No. 10801


Thank you for the opportunity to review the draft report. We appreciate the role that the
Office ofInspector General (OIG) plays in assisting management in ensuring that these
programs are effectively managed. The OIG's main concerns in this audit reflected that
errors occurred because (1) SBA did not have adequate procedures to evaluate insurance
checks; (2) some center staff lacked the expertise or tools; and (3) the centers did not
accurately document information to support determinations. The Office of Financial
Program Operations (OFPO) is confident that these concerns have been or are in the
process of being addressed.

Following the audit exit conference, OFPO has taken a proactive stance to address these
audit concerns in collaboration with the OIG and the Office of Disaster Assistance
(ODA). Immediately, OFPO engaged with ODA to facilitate a duplication of benefits
training hosted at the Fort Worth Processing and Distribution Center (PDC). OFPO
identified key center staff from the Birmingham Disaster Loan Servicing Center, the EI
Paso Disaster Loan Servicing Center, and the Santa Ana National Disaster Loan
Resolution Center and provided funding to attend training at the PDC. The training
focused on improving their knowledge of the Disaster Credit Management System
(DCMS) and learning through the steps that the PDC takes to process duplication of
benefits checks. The training introduced the center staff to the various tools used by the
PDC to complete the duplication of benefits process. In addition to the greater
understanding of how DCMS works, OFPO facilitated access for select center staff to the
PDC's Home/Business Financial Analysis Tool and the National Emergency
Management Information System which resides under FEMA.

As a further improvement to the process, OFPO is now requiring that all transactions
regarding duplication of benefits must be captured in the Comments Log that resides in
DCMS (this is the only component that Disaster Loan Servicing Center staff can edit
APPENDIX V. AGENCY RESPONSE                                                              18

using customer service rights comment tab). By adding comments, the loan will have
centralized documentation of duplication of benefits determinations. This is particularly
useful if the loan moves back to the PDC for an increase in eligibility. Currently OFPO
is developing a "logic tree" on duplication of benefits illustrating the typical workflow or
decision making process to instruct center staff on the steps needed to arrive at a
determination. The logic tree is currently being vetted through the center staff who
attended the training. OFPO will update the draft and then vet the final draft with ODA
and the OIG. The focus is to provide the correct tools to the subject matter experts at the
centers to better standardize the process.

In conjunction with the logic tree, OFPO plans to initiate the development of standard
letter and form templates for all of the centers. We are currently collecting the different
templates used in the centers and will assign a focus team made up of center staff to
develop one standard. OFPO has scheduled a 2 day process improvement workshop
during February, 2011 to ensure that all the disaster servicing centers are processing work
in the same manner (i.e. forms, letters and process). OFPO will ensure that each center
will have a team of subject matter experts to process duplication of benefits. This will
improve efficiency by being able to focus appropriate training and support to one team
instead of to all center staff. These subject matter experts will have the expertise and
knowledge to make informed determinations on any potential duplication of benefits
action. Once the new procedures are in place and prove to be effective, the changes will
be incorporated into the revised SOP 50 52. The OIG notes that the SOP 50 52 is silent
on processing duplication of benefits; therefore, OFPO intends to incorporate the
duplication of benefits procedures for inclusion in the new release of SOP 50 52 and
continue the ongoing conversation with the OIG on any concerns.

One other audit concern of the OIG was that it appeared that the disaster servicing centers
did not contact insurance companies to determine what other insurance checks may have
been issued to the borrower without the knowledge of the SBA. To address this concern,
OFPO incorporated contacting insurance companies after a check is received as a
standard practice. The centers are engaged and cooperative in the process to address
these audit concerns.

Moving forward, OFPO hopes to continue collaboration with the OIG and ODA. The
office is working on the possibility of utilizing the PDC's Home/Business Financial
Analysis Tool to upload additional scanned items that address duplication of benefits
actions from the servicing or liquidation centers. Currently, the Birmingham Disaster
Loan Servicing Center hosts a website that uploads data from the EI Paso Disaster Loan
Servicing Center daily and migrates this information into one location by loan number.
This interim solution will improve documentation concerns. OFPO intends to move
forward to make sure all disaster centers under OFPO and ODA have access to necessary
data.
APPENDIX V. AGENCY RESPONSE                                                              19

Taking into account the above narrative, OFPO is providing additional information in
response to the OIG recommendations as follows:

1.     Recover $625,880 ofDOBs identified in this audit that were improperly
returned to borrowers and $529,444 ofDOBs identified in this audit that were outside
ofthe scope ofthe sample.

OFPO concurs with this recommendation. However, OFPO believes it is highly unlikely
that the funds identified by the OIG will be returned. In all likelihood, we will have to
refuse further discretionary loan servicing assistance until the borrowers repay the
improperly returned funds in a lump sum or through agreed upon monthly installments.
OFPO and the Disaster Centers will make every effort to recover as much of the
improperly returned DOBs by 12-31-2011 as follows:

   • 	 OFPO will review the loans identified in the audit to re-verify OIGs findings. If
       there is a discrepancy, we will discuss the issue with the OIG prior to taking any
       action to collect.
   • 	 OFPO will develop a standardized dunning letter and workflow document to
       guide the loan specialists in retrieving duplication of benefits that were
       improperly returned.
   • 	 The letters will be mailed to all borrowers no later than April 30, 2011. The letter
       will include a statement that if the money is not returned to the SBA, future
       discretionary SBA loan servicing assistance will not be granted as stated above.
   • 	 Additionally, OFPO will gather monthly data from both centers of the contacted
       borrowers, including responses from the borrower and the total amount recovered
       beginning May 1, 2011.


2.    IdentifY and recover other DOBs improperly returned during FY2008, FY2009,
and FY2010.

OFPO concurs with this recommendation. Due to the volume of work this project would
entail, it would be most beneficial to do a cost benefit analysis in July, 2011, determined
by the results of trying to collect the funds as noted above in recommendation # 1. If it is
determined that the borrowers did not respond to the attempt to collect the DOB under
Recommendation #1, we reserve the opportunity to review this recommendation with the
OIG. It is important to note that there is no loss to the SBA if the borrower continues to
make payments until the loan is paid in full.


3.     Revise SOP 50 50 and SOP 50 52 to incorporate detailed instructions for
processing insurance recovery checks that explain which checks to evaluate for DOBs,
how to evaluate them, what information to use in performing the loan eligibility
computation, and where to find the information needed to perform computation.

OFPO concurs with this recommendation as indicated in the opening narrative. OFPO
APPENDIX V. AGENCY RESPONSE                                                            20

expects to place edits of the SOP 50 52 into clearance by July 2011 and will develop
language to be included in the next revision of SOP 50 50 (during its annual update
which is issued each September).


4.     Assign the processing of insurance recovery checks to selected individual(s) at
each center and provide them training to allow them to become proficient in
calculating duplication of benefits.

OFPO concurs with this recommendation and has addressed and or plans to address these
concerns as reflected in the opening narrative.


5.     Ensure the servicing centers document all of the information related to the
decision to return or retain each check for future reference.

OFPO concurs with this recommendation and has already taken action to capture
determinations as evidenced in the opening narrative. Additionally, OFPO will work
with the Denver Finance Center (DFC) to improve the process for identifying insurance
checks in the field cashiering system. OFPO will recommend changes to the field
cashiering system which would identify insurance checks that are received by the disaster
loan servicing centers and reflect the disposition of check (i.e. returned to
borrower/senior lender for endorsement, applied against loan, not related to the disaster
etc.). These discussions will start no later than April 15,2011.



Again, thank you for the opportunity to review the draft report. OFPO hopes to continue
collaboration to address the OIG concerns and invites the OIG to revisit the centers 6
months after the implementation of the logic tree document. This step will track whether
efficiency has improved and if the process for making duplication of benefits
determinations should be revisited. Please let us know if you need additional information
or have any questions regarding our response.
